                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                 Inspection of
                                     the U.S. Mission to the United Nations
                                      Educational, Scientific and Cultural
                                          Organization, Paris, France

                                               Report Number ISP-I-12-26, May 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        7
Resource Management                                     12
  Real Property                                         12
  Human Resources                                       13
  Quality of Life                                       13
  Information Technology and Information Security       14
Management Controls                                     15
List of Recommendations                                 16
List of Informal Recommendations                        18
Principal Officials                                     19
Abbreviations                                           20




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The small staff of the U.S. Mission to the United Nations Educational, Scientific and Cultural
    Organization (UNESCO) faced singular challenges in 2011. Nevertheless, the Ambassador’s
    expertise in UNESCO issues, his genuine enthusiasm for the organization’s goals, and his
    determination to advance U.S. priorities have enhanced the mission’s visibility among
    UNESCO’s member states and U.S. influence within the organization itself.

•   The U.S. Mission has increased its level of engagement in UNESCO over the past 2 years,
    with a commensurate increase in influence on programs, priorities, and policy.

•   With the October 2011 cutoff of U.S. funding to UNESCO in the wake of Palestinian
    accession, the U.S. Mission faces a new challenge: how to maintain influence and
    effectiveness in the organization and credibility among member states after withholding 22
    percent of UNESCO’s financial support.

•   Internal controls that govern travel, spousal employment, and the use of U.S. Government
    vehicles are not sufficiently robust. Tri-mission management’s (TMM) ethics advice on these
    issues has not been consistently correct. The Ambassador and the deputy chief of mission
    (DCM) have committed to close cooperation with TMM senior officers to improve internal
    controls.

•   Closer coordination and a freer flow of information between the U.S. Mission to UNESCO
    and the Bureau of International Organization Affairs (IO) would benefit overall productivity
    and maximize U.S. influence within UNESCO.

•   Over the years, the U.S. Mission to UNESCO appears to have paid insufficient attention to
    codifying information sharing and record keeping; standard operating procedures for shared
    files and record emails are needed.

•   The public diplomacy section suffers from lack of continuity in its leadership. The section
    needs to think strategically, train staff, and establish standard operating procedures to ensure
    more effective operations.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 3 and 31, 2012, and in Paris,
France, intermittently between February 8 and March 5, 2012. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
         UNESCO is a specialized agency of the United Nations whose mission contributes to the
building of peace, the eradication of poverty, sustainable development, and intercultural dialogue
through education, the sciences, culture, communication, and information. In 2003, the United
States returned to the organization after a 19-year absence prompted by philosophical and
political concerns about UNESCO’s leadership, direction, and management. Of the 195 member
states, the United States provides some $80 million in assessed contributions, representing
approximately 22 percent of the organization’s budget. The United States also provides
significant extrabudgetary funding and in-kind contributions for various initiatives from
government as well as private sources, the latter via public-private partnerships. Most recently,
the United States has promoted UNESCO initiatives on issues such as the education of women
and girls and combating racism.

        In contributing to several UNESCO core activities, the United States plays a particularly
significant role in combating illiteracy, expanding international efforts to improve water resource
management, monitoring climate change, expanding and maintaining tsunami warning systems,
promoting free media in the developing world, and preserving world heritage sites. The U.S.
Mission to UNESCO staff, along with temporary duty staff from various Federal agencies,
engages on an ongoing basis with delegations and experts from other countries to achieve
progress on these and other areas of emphasis. Through this active engagement, provision of
professional expertise, and financial support, the United States has earned a respected position
within the organization.

       In late 2011, however, a majority of member states voted in support of Palestine’s
application for full membership in UNESCO. As a result, in accordance with U.S. law, the
United States has terminated all government funding to the organization. That the United States
gained reelection to UNESCO’s Executive Board only 48 hours after the funding cutoff is
testament to the status and position of respect that the United States holds within the
organization.

       As a result of these elections and other high-profile political developments in recent
months, the U.S. Mission to UNESCO’s focus has changed significantly. The mission continues
to work collaboratively within the organization to move forward on a positive agenda but is now,
understandably, also turning its attention toward emphasizing the value of continued American
engagement in UNESCO and other multilateral institutions.

        The U.S. Mission to UNESCO has seven direct-hire positions, both Foreign and Civil
Service, and five locally employed staff members, three of whom have substantive, officer-level
portfolios.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
       The small staff of the U.S. Mission to UNESCO faced singular challenges in 2011. The
Ambassador was one of the architects of the U.S. return to UNESCO after a long and much-
publicized hiatus. His expertise in UNESCO issues, coupled with his genuine enthusiasm for the
organization’s goals and his determination to advance U.S. priorities within that context, has
enhanced the mission’s visibility among UNESCO’s member states and U.S. influence within
the organization itself. An uptick in mission engagement across the board has created an
expectation that the United States, UNESCO’s largest donor, is committed, come what may, to
the organization’s success.

        In early 2011, the mission began its campaign for reelection to UNESCO’s Executive
Board. Given the renewed levels of U.S. involvement in the organization, the Department of
State (Department) and the mission believed it was important for the United States to play a
leadership role. The Ambassador threw himself into the effort, meeting with nearly all of the
delegation heads to outline the U.S. vision for UNESCO and urge their support. The rest of the
mission staff, already fully engaged in core work representing numerous U.S. Government
agencies with UNESCO equities and advancing committee and programmatic work, supported
the reelection effort with equal diligence.

       When Palestine applied for admission to UNESCO later in the year, with the Executive
Board elections approaching rapidly, the mission had to divert some of its limited resources to
countering Palestine’s campaign for UNESCO membership. Once again, the Ambassador and
DCM set up a full round of meetings to advise member states and regional groups of U.S. law
regarding the admission of nonstates to UN bodies. Representatives of several foreign missions
commented on the positive impact of this outreach despite the unwelcome message from mission
leadership. Last-minute diplomatic maneuvering allowed the United States to be reelected to the
Executive Board just hours after cutting off funding to the organization. In acknowledgment of
the mission’s leading role among UNESCO member states, one ambassador explained that the
members “elected the Ambassador and his staff to the board, not the United States.”

        The Ambassador and his small staff cannot expect any respite in 2012 as the mission
seeks ways to maintain influence at UNESCO despite the cutoff of U.S. funding. Even as the
Ambassador works with the UNESCO Director General to find a financial way forward for the
organization, other mission employees work on the organization’s committees to identify and
implement cost savings. Despite the possibility of losing voting rights if U.S. funding is not
restored before the end of 2013, the entire mission is committed to helping UNESCO achieve its
goals.

        In the past 2 years, the mission has expanded its efforts to facilitate public-private
partnerships between UNESCO and industry giants like Apple, Microsoft, and Proctor &
Gamble. When U.S. companies indicate interest in partnering with UNESCO, the mission steps
in to guide the process, identify appropriate projects, and monitor progress. The mission has also
redoubled efforts on the Goodwill Ambassador program, promoting U.S. cultural icons Herbie
Hancock, Forest Whitaker, and Sam Pisar in the past 2 years and finding matching UNESCO
programs for their particular interests. The mission has also included other delegations in U.S.

                                          3
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

initiatives, ensuring buy-in to U.S.-originated projects, which are then much stronger for having
multilateral co-ownership.

        Even though the United States is not on UNESCO’s World Heritage Committee, the
mission is active in that program, often facilitating discussion on sites in politically sensitive
areas involving disputed ownership or jurisdiction. The Ambassador’s mediation role in these
cases is additional evidence of the mission’s broad effectiveness.

        U.S. activism on UNESCO issues has never been perfunctory, but the past 2 years have
seen the U.S. Mission and its leadership in overdrive, with remarkable results. Unfortunately,
mission leadership has not always had the same success communicating with all mission
elements or with IO, the U.S. Mission to UNESCO’s parent bureau. As a result, the mission has
lost potential synergy with its well-staffed IO desk, which, in turn, serves as a central switching
station that is in constant communication with other Department offices, other Federal agencies,
the U.S. National Commission for UNESCO, and other entities that the mission needs for quick
consensus building.

        The Ambassador takes seriously the Department’s recent Quadrennial Diplomacy and
Development Review (QDDR), which talks about empowering ambassadors as chief executive
officers, who then represent and leverage the full spectrum of U.S. expertise. Also in line with
the QDDR, he has taken concrete steps, along with the entire mission staff, to uphold and defend
universal values, deepen relationships with U.S. allies, promote respect for human rights,
empower women and girls, mobilize civil society and the private sector to address common
challenges, and link multilateral and bilateral diplomacy. The Ambassador has prioritized
creative, innovative, and flexible approaches to achieve results. His catch word is
“entrepreneurial.”

        The QDDR also makes it clear that regional, programmatic, and sector priorities should
shape mission planning and budgeting, not the other way around. According to Foreign Affairs
Manual regulations 1 FAM 331.1 (2) and 1 FAM 333.9, IO’s UNESCO office formulates and
implements U.S. policy toward UNESCO. In acknowledgement of the Ambassador’s political
acumen and long experience with UNESCO issues, IO has given him considerable autonomy on
policy issues. IO has not, however, abrogated its policymaking role, which is not simply that of a
clearing house for mission proposals or UNESCO documents.

       Communication between IO and mission staff could be improved. (b) (5)

                                                             Consequently, mission staff members
can feel torn between an obligation to work with their IO counterparts on a full range of issues
and a desire to respect their leadership’s guidance. Neither can IO staff members effectively brief
their leadership on UNESCO issues if they are unaware of topics that the Ambassador might
raise with the deputy assistant secretary or Assistant Secretary or higher.

       Multilateral missions need guidance from their capitals on emergent political issues or
clearances on negotiated documents in a very short time frame. (b) (5)


                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b) (5)


         On the other hand, IO desk officers do not always have the authority to make quick
decisions on the mission’s requests for guidance on politically sensitive issues without consulting
with a number of other bureaus and agencies.

       The Ambassador has encouraged his employees to be entrepreneurial in their work, and
they have taken him at his word, finding him approachable when they need guidance. The
mission has risen to every challenge that the vagaries of multilateral work have presented. They
have not, however, been as empowered as they need to be to forge a transparent and effective
partnership with the well-staffed IO desk.

Recommendation 1: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs,
should develop written instructions for their joint staffs to address communication protocols, the
free flow of information, and clearance processes. (Action: U.S. Mission to UNESCO, in
coordination with IO)
          (b) (5)




        In addition to being responsible for overall mission management, the DCM carries a
heavy policy load. She is highly visible in the diplomatic community, where her fluency in
several languages makes her a sought-after interlocutor. The OIG team encouraged her to be
more accessible to her subordinates—especially those in need of confidence building or
mentoring—outside the periodic, pressure-filled multilateral UNESCO sessions.

      The U.S. Mission’s offices are a minimum 30-minute commute from UNESCO
headquarters, where all the work with UNESCO leadership and committees occurs. Although
many delegations have permanent offices at the headquarters(b) (5)




        U.S. Mission staffing will be adequate, but not generous, when all U.S. direct-hire
positions are actually filled. The Policy and Program Implementation section of this report
comments on the impact of lengthy staffing gaps, on mission efforts to restructure its skills mix,
and on current limitations in managing the reform agenda. Locally employed staff at the U.S.
Mission to UNESCO is interchangeable with officer staff on a wide range of issues. Without the
continuity provided by the locally employed staff, it would be more difficult to operate
successfully in the complicated UNESCO environment.

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The Ambassador and DCM make good use of representational events to advance U.S.
priorities. They do not earmark representational funds at the beginning of the fiscal year for
individual staff use but evaluate staff requests for funds on a case-by-case basis. In such a small
mission, this approach is logical. Employees do, however, need to reciprocate invitations from
their colleagues. It is particularly important for locally employed staff members to maintain
relationships with their counterparts over the years, and mission management has not made funds
available to them systematically in the past 2 years. The Ambassador and DCM could cohost
small events for working-level contacts with individual officers and locally employed staff as
one way of leveraging representational resources. Funding for one-on-one coffees and lunches is
also invaluable in the multilateral context. The Policy and Program Implementation section of
this report addresses the use of public diplomacy representational funding in particular and
includes a related recommendation.

       Informal Recommendation 1: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should request representational plans from mission
       officers and locally employed staff at least semiannually, earmark some funding for one-
       on-one contact invitations, and cohost occasional events for working-level contacts.

        The Ambassador and DCM are cognizant of their responsibilities for entry-level officer
development. The entry-level officer mentoring program for all three Paris missions is run out of
the bilateral mission and is discussed in the Embassy Paris inspection report, Inspection of
Embassy Paris, France, and Constituent Posts (May 2012).

        The mission staff is remarkably diverse for its small size, but because of its size it does
not, nor should it necessarily have, an Equal Employment Opportunity (EEO) counselor on staff.
Most employees do not even know who in the bilateral embassy to contact when EEO questions
arise. The Embassy Paris inspection report addresses EEO coverage of the multilateral missions.

        The regional security program is also run out of the bilateral mission. The Embassy Paris
inspection report addresses any security issues related to the U.S. Mission to UNESCO. The
Ambassador and the DCM provide the regional security program their full support.




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        The U.S. Mission’s small team of seven direct-hire Americans and five local employees
is actively engaged in monitoring developments and shaping future directions of UNESCO’s
many programs and initiatives. That workload continues to expand. Agencies such as the
National Park Service, the National Oceanographic and Atmospheric Administration, and the
Army Corps of Engineers are deeply involved in the work of various UNESCO “sectors” and
frequently send experts to conferences and meetings of UNESCO sub-bodies. On occasion, these
agencies have even provided temporary support to cover mission staffing gaps. Yet, despite the
steadily expanding workload since the 2004 OIG inspection, the number of permanently
assigned staff at the mission has declined. The Departments of Education and Health and Human
Services no longer assign permanent personnel to the mission, this in spite of their ongoing
interest in many UNESCO programs and initiatives. Department of State employees cover the
full range of issues in consultation with those U.S. agencies that have UNESCO equities.

        Given the growing incidence of high-profile political issues, the mission has found a way
to devote additional resources to political affairs. The mission is replacing its legal officer
position with a mid-level political officer position in the summer of 2012. Much of the legal
work surrounding U.S. reintegration into the organization after its long hiatus has been
completed, and the Office of the Legal Adviser will seek to provide assistance beyond what it
already provides either from Washington or through temporary duty assignments during General
Conference or Executive Board meetings. A mid-level political officer with a strong multilateral
background, working in tandem with the experienced locally hired political assistant, will give
the mission additional full-time diplomatic resources to manage and report on fast-breaking
political and legal developments and coordinate with the Department.

        Mission staff is fully occupied with program management and has not focused sufficient
attention on record keeping. The mission’s efficiency is limited, however, by the absence of a
readily available central repository of historical and current information and documentation. The
mission’s SharePoint site has not been updated for the past year. Nor is the mission’s shared
drive organized and updated consistently so that staff has ready access to documents on issues or
topics the mission is working on. The mission has shifted from paper files to electronic files, as it
should, but without an organizational principle that all share and implement. Although weekly
staff meetings include brief discussions of current activities, the absence of a centralized and
comprehensive library of the mission’s output and key inputs from Washington, UNESCO, and
other sources undermines efficiency and can serve to limit information sharing. As employees
depart, their successors can rely only on any individually maintained files they might leave
behind.

Recommendation 2: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should create and maintain a central repository of mission work products,
Department of State instruction cables, significant United Nations Educational, Scientific and
Cultural Organization communications, and other relevant documents on the mission’s
SharePoint site or other appropriate shared drive. (Action: U.S. Mission to UNESCO)



                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should identify one staff member, preferably a
       locally hired employee, to create and oversee maintenance of a central document
       repository.

       Informal Recommendation 3: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should request hands-on training from Embassy
       Paris on creating and maintaining a central document repository.

       Mission-generated cable traffic is extremely limited, producing less than one substantive
cable per week over the past 14 months. The mission does not use record email. For multilateral
work, maintenance of a historical record is vital to track texts, votes, and the evolution of issues
over several years. At present, the mission maintains only a partial historical record of the work
the United States is undertaking in UNESCO. Both government personnel in need of reporting
on developments in UNESCO and historians would benefit from greater use of these two
channels of communication on programmatic as well as political topics.

       Informal Recommendation 4: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should make greater use of cables and record email
       in reporting on programmatic and political developments within the United Nations
       Educational, Scientific and Cultural Organization.

        The U.S. administration has made clear its ongoing commitment to active engagement
across the multilateral system to protect and promote American interests and values. As with
most organizations with which the United States engages, management reform at UNESCO is a
perennial topic of interest and discussion, and the United States plays an active role in moving
the organization toward setting priorities and achieving efficiencies. Now that the cutoff in U.S.
funding has moved the organization into financial crisis mode and many member states are
beginning to view management reform as critical to the organization’s future, the mission will
want to continue and even strengthen its engagement in reform efforts. However, the recent
elimination of the eligible family member position that managed the reform issues has strained
the mission’s capacity to do so.

        The FY 2013 Mission Strategic and Resource Plan requested an additional position to
monitor and coordinate management reform and U.S. employment issues at UNESCO. The
Department’s funding for a professional associate to cover reform issues ended in late 2011. To
be effective in representing U.S. interests in management reform efforts, extensive knowledge of
the history and workings of the organization is highly desirable. In the interests of continuity and
building institutional memory on an issue likely to be at the forefront of the UNESCO agenda for
some time, inspectors discussed with mission management possible options for covering the
reform portfolio until a long-term solution is found, including assigning this oversight task to a
locally employed staff member and involving IO in the monitoring effort. When the new
political officer arrives in mid-2012, coverage of political issues will be significantly expanded,
and the political assistant might be able to add this important issue to his traditional
responsibilities.


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The mission’s public diplomacy section is challenged by a lack of permanent leadership,
the doubling of its locally employed staff in 2011, and the demands imposed by an energetic
Ambassador with ambitious public diplomacy goals and a high public profile. Since 2010, two
public affairs officers have curtailed, leaving the day-to-day supervision of the section in the
hands of either an already busy DCM or an officer on a succession of short-term temporary duty
assignments. This situation is not likely to improve in the near future; the public affairs officer
position is currently vacant. At the same time, the mission has added a second locally employed
staff position in public diplomacy. Ensuring that the work of both locally employed staff
members is coordinated, transparent, and effective puts an added burden on an already weak
supervisory arrangement. Given these challenges, it is remarkable that the mission’s public
diplomacy effort is as effective as it has been.

        One of the consequences of the lack of a full-time public affairs officer is inadequate
strategic planning. Although there are a number of planning documents that address individual
portions of the public diplomacy work, there is no single strategic planning document that
articulates the section’s goals and objectives. Given the staffing problems and the mission’s
unique range of audiences—including the member nations, the UNESCO secretariat, the member
delegations, and the U.S. public—it is essential to have a coherent plan to develop key messages,
define the target audience, match programs and resources to each, report on results, and ensure
compliance with the Smith-Mundt Act. The public diplomacy section’s efforts to implement a
strategic plan, mentor and train locally employed staff, and implement standard operating
procedures and policies cannot wait until 2014. The mission is exploring options for obtaining an
experienced public diplomacy officer on a temporary duty assignment to carry out these strategic
and training goals. The OIG team supports these efforts.

Recommendation 3: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should implement an annual comprehensive public diplomacy strategy that
includes a plan of budgeted activities to carry out this strategy. (Action: U.S. Mission to
UNESCO)

        In response to the Ambassador’s goal of expanding outreach in social media, the mission
obtained funds from the Under Secretary for Public Diplomacy and Public Affairs to fund a half-
time locally employed staff position. Additional funding for the public diplomacy budget
enabled the mission to expand the hours up to a full-time position. Since the incumbent came on
board, the work performed has changed and developed, but the position description has not been
revised to reflect the duties actually performed. Similarly, the position description of the other
locally employed staff member has not been adjusted to reflect changes to her job as a result of
the addition of a second position.

Recommendation 4: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should revise its position descriptions for locally employed public
diplomacy positions PC-4009 and PC-4010. (Action: U.S. Mission to UNESCO)

        The public affairs section has a modest amount of flexible funds that it can use to carry
out public affairs programming. The OIG team found numerous irregularities in the mission’s
grants files. Grants are not being maintained on the appropriate DS-4012 forms, records of
expenditures are incomplete, reports of work completed do not exist, designation letters for
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

grants officer’s representative are missing, documentation of noncompetition for grants
exceeding $10,000 is absent, SF-270 forms for advance of payment are missing, and grants are
not being closed out properly. The DCM, who had previous experience in public affairs and had
held a grants warrant earlier in her career, has been trying to provide grants oversight directly
rather than delegate this function to another staff member; however, this is not a reasonable
approach, given the other demands on her time.

Recommendation 5: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs and
the Bureau of Administration, should bring its grants into compliance with Department of State
standards and regulations. (Action: U.S. Mission to UNESCO, in coordination with IO and A)

       Informal Recommendation 5: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should require both of the locally employed staff
       members in the public affairs section to take the Foreign Service Institute’s online grants
       officer training.

        Of particular concern are two grants to the bilateral Fulbright Commission executed at
the end of FYs 2010 and 2011. The original intention of the grants appears to have been for the
Fulbright Commission to provide speakers from within the Fulbright community in Europe to
support the mission’s public diplomacy activities, but the mission specified neither the terms of
the grants nor the reporting requirements. In effect, the Fulbright Commission’s role in providing
speakers has merely been processing payment to individuals that the mission identified. Two-
thirds of the programs carried out under the FY 2010 grant were for entertainment at
representational events held at the Ambassador’s residence. Although public diplomacy funds
are often used for cultural presentations at the ambassadorial residences, the usual practice is for
the event to be built around the cultural presentation. Several of the grants over the past 2 years
appear to be solely to provide entertainment for the Ambassador’s dinner guests, something more
properly funded with representational rather than public diplomacy program funds. In effect, the
mission has attempted to turn expiring 1-year appropriations into no-year money that it can draw
upon to fund a variety of events, some of which are tenuously related to public diplomacy. Even
if the Fulbright Commission had been directly involved in the selection of speakers, this activity
would still be unrelated to the Commission’s key work of promoting educational exchange
between France and the United States.

Recommendation 6: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should cease issuing end-of-year grants to the bilateral Fulbright
Commission to perform work more properly carried out by the mission itself. (Action: U.S.
Mission to UNESCO)

Recommendation 7: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs and
the Bureau of Administration, should cancel grants S-FR630-10-GR002 and S-FR630-11-GR005
and return unexpended funds to the U.S. Treasury. (Action: U.S. Mission to UNESCO, in
coordination with IO and A)


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        In 2011, the mission was not able to use its public diplomacy representation funds as
effectively as it should have. Although the public affairs officer hosted events in the DCM’s
residence, individual members of the public affairs section did not make use of allocated funds to
establish and maintain important informal ties with media and other contacts. There was no
public diplomacy representation plan in FY 2011, and the two public affairs specialists were not
aware that they could use representational funds. Because there was no plan for using
representational funds, at the end of that fiscal year, unexpended public diplomacy funds
amounting to one-third of the total allotment were transferred to the general mission account.

       Informal Recommendation 6: The U.S. Mission to the United Nations Educational,
       Scientific and Cultural Organization should develop a public diplomacy representation
       plan and make appropriate use of the section’s separate representational allotment to
       advance its working-level contacts.




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management

                                          U.S.       U.S.          Foreign                    Total
                                                                                 Total
                Agency                   Direct-    Local-         National                  Funding
                                                                                 Staff
                                        Hire Staff Hire Staff       Staff                    FY 2011
 Department of State
 Diplomatic and Consular Programs                6             2            1            9   $1,352,400
 Public Diplomacy                                1             2                         3    $352,600
 Representation                                                                                 $36,400

 Totals                                          7             4            1          12    $1,741,400

 Note: U.S. direct-hire salaries are not included in the diplomatic and consular programs funding total.

        The U.S. Mission to UNESCO pays for and receives the full range of administrative
services provided by TMM under the International Cooperative Administrative Support Services
agreement. The TMM was established in 2005 when the management platforms for Embassy
Paris and the two multilateral missions were combined. For reasons of accountability, tracking,
and data collection, staff members are instructed to use the eServices application to request
TMM services. However, they often call on the few locally employed TMM staff members who
work out of the building where the two multilateral missions are located to make requests on
their behalf, because they feel that TMM is not responsive to eServices requests. Employees at
the U.S. Mission to UNESCO are generally satisfied with TMM services.

Real Property

        In 2004, and as part of a master plan to improve security of U.S. Government offices in
Paris, the U.S. Mission to UNESCO was relocated from the chancery to the short-term leased
Raphael building, which it shares with the U.S. Mission to the Organization for Economic
Cooperation and Development and the Immigration and Customs Enforcement office. The
mission’s space, all on one floor, is adequate, attractive, and functional, and TMM maintains the
building well. Lease and operating costs are shared by the various tenants based on space
occupied.

        The Ambassador resides in an attractive U.S. Government-owned residence designated
for the permanent representative to UNESCO. The space meets his representational needs.

        At present, there is no designated DCM residence because the DCM and the Embassy
Paris DCM are a Foreign Service tandem couple and share the U.S. Government-owned
residence designated for the bilateral embassy’s DCM. Upon their departure from Paris in 2012,
TMM will either lease a suitable residence for the multilateral mission DCM or provide
appropriate executive-level representational housing from its current inventory of short-term
leased properties. All other mission officers and specialists are housed adequately in unfurnished

                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

short-term leased apartments or furnished apartments on one of two government-owned
compounds.

Human Resources

Late Performance Evaluations

       During the FY 2011 rating cycles, the Ambassador and DCM were overdue on five
performance evaluations involving both U.S. direct-hire and locally employed staff members.
TMM’s human resources office reminded them of their obligations; nonetheless, nearly half of
the submissions were late. Mission management has not given sufficient attention to the timely
preparation of evaluations even though tardy submissions can have a negative effect on
promotion, tenure, and step increases.

Recommendation 8: The U. S. Mission to the United Nations Educational, Scientific and
Cultural Organization should hold rating officers accountable for timely submission of annual
employee performance evaluations and cite poor performance in the delinquent officer’s own
performance evaluation. (Action: U.S. Mission to UNESCO)

Official Residence Staff

        In 2005, the mission employed five official residence staff—three at the Ambassador’s
residence and two at the DCM’s residence. Since 2011, for the reasons mentioned earlier, the
current DCM has had no official residence staff. The Ambassador’s official residence staff
contingent was increased temporarily from three to four, with the understanding that the number
would return to three at the end of the current Ambassador’s tenure.

        On numerous occasions, the Ambassador has augmented his official residence staff
temporarily for large events by hiring additional official residence employees and then
terminating them at the end of the event. This method of obtaining additional help for individual
events increases the representation allotment inappropriately and puts an unnecessary burden on
the management staff who process these personnel actions. According to 3 FAM 3256 (1) and
Department of State Standardized Regulation 320 f., official residence staff overtime and
augmentation expenses for representational events are to be charged to the representation
allowance.

Recommendation 9: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should bring its method of augmenting official residence staff resources
for representational events into line with U.S. Government regulations. (Action: U.S. Mission to
UNESCO)

Quality of Life

        Because quality-of-life issues affect staff equally at all three Paris missions, the Embassy
Paris inspection report includes a discussion of those issues and should be read in conjunction
with this report.

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Information Technology and Information Security

       Because the Embassy Paris information management section is responsible for
information technology and information security issues at all three Paris missions, all
recommendations on information technology and information security issues are included in the
Embassy Paris inspection report, which should be read in conjunction with this report.




                                        14
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
       In his annual statement of assurance on management controls for the period ending June
30, 2011, the Ambassador stated that the results of internal and external reviews provided
reasonable assurance that management control objectives had been achieved. Despite these
assurances, the inspection team found several vulnerabilities and determined the need for
management’s heightened involvement and collaboration in the management controls program.

        Generally, weaknesses in the areas of voucher certification, travel authorization, and gifts
disposition were found across all three missions in Paris. TMM is addressing these concerns.
Inspection team comments and recommendations in this area are included in the Resource
Management section of the Embassy Paris inspection report.

       The inspectors found internal controls on official travel and the use of official vehicles at
the U.S. Mission to UNESCO to be lax. As a result, mission management and TMM thoroughly
reviewed existing control systems, identified weaknesses, strengthened procedures to bring them
into compliance with U.S. Federal regulations and guidelines, and obtained reimbursement for
the Department, where appropriate.

        The U.S. Mission to UNESCO also lacked adequate management controls over spousal
employment and internal controls to avoid the appearance of conflict of interest. Since the arrival
of the inspection team, mission management has been working closely with TMM and the Office
of the Legal Adviser to develop adequate screening arrangements and to obtain the requisite
approvals for spousal employment. The inspectors have reviewed the proposed screening
arrangements as well as the request for spouse employment authorization and found them to be
in accordance with the Department’s ethics guidelines. The OIG team did not, therefore, make a
formal recommendation on this matter.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs,
should develop written instructions for their joint staffs to address communication protocols, the
free flow of information, and clearance processes. (Action: U.S. Mission to UNESCO, in
coordination with IO)

Recommendation 2: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should create and maintain a central repository of mission work products,
Department of State instruction cables, significant United Nations Educational, Scientific and
Cultural Organization communications, and other relevant documents on the mission’s
SharePoint site or other appropriate shared drive. (Action: U.S. Mission to UNESCO)

Recommendation 3: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should implement an annual comprehensive public diplomacy strategy that
includes a plan of budgeted activities to carry out this strategy. (Action: U.S. Mission to
UNESCO)

Recommendation 4: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should revise its position descriptions for locally employed public
diplomacy positions PC-4009 and PC-4010. (Action: U.S. Mission to UNESCO)

Recommendation 5: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs and
the Bureau of Administration, should bring its grants into compliance with Department of State
standards and regulations. (Action: U.S. Mission to UNESCO, in coordination with IO and A)

Recommendation 6: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should cease issuing end-of-year grants to the bilateral Fulbright
Commission to perform work more properly carried out by the mission itself. (Action: U.S.
Mission to UNESCO)

Recommendation 7: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization, in coordination with the Bureau of International Organization Affairs and
the Bureau of Administration, should cancel grants S-FR630-10-GR002 and S-FR630-11-GR005
and return unexpended funds to the U.S. Treasury. (Action: U.S. Mission to UNESCO, in
coordination with IO and A)

Recommendation 8: The U. S. Mission to the United Nations Educational, Scientific and
Cultural Organization should hold rating officers accountable for timely submission of annual
employee performance evaluations and cite poor performance in the delinquent officer’s own
performance evaluation. (Action: U.S. Mission to UNESCO)

Recommendation 9: The U.S. Mission to the United Nations Educational, Scientific and
Cultural Organization should bring its method of augmenting official residence staff resources


                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

for representational events into line with U.S. Government regulations. (Action: U.S. Mission to
UNESCO)




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should request representational plans from mission officers and
locally employed staff at least semiannually, earmark some funding for one-on-one contact
invitations, and cohost occasional events for working-level contacts.

Informal Recommendation 2: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should identify one staff member, preferably a locally hired employee,
to create and oversee maintenance of a central document repository.

Informal Recommendation 3: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should request hands-on training from Embassy Paris on creating and
maintaining a central document repository.

Informal Recommendation 4: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should make greater use of cables and record email in reporting on
programmatic and political developments within the United Nations Educational, Scientific and
Cultural Organization.

Informal Recommendation 5: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should require both of the locally employed staff members in the
public affairs section to take the Foreign Service Institute’s online grants officer training.

Informal Recommendation 6: The U.S. Mission to the United Nations Educational, Scientific
and Cultural Organization should develop a public diplomacy representation plan and make
appropriate use of the section’s separate representational allotment to advance its working-level
contacts.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                               Name     Arrival Date
Ambassador                              David Killion    08/23/2009
Deputy Chief of Mission              Kathleen Kavalec    07/23/2010




                                      19
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission
Department      U.S. Department of State
EEO             Equal Employment Opportunity
FAM             Foreign Affairs Manual
IO              Bureau of International Organization Affairs
OIG             Office of Inspector General
QDDR            Quadrennial Diplomacy and Development Review
TMM             Tri-mission management
UNESCO          United Nations Educational, Scientific and Cultural Organization




                            20
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
